NO. 20-18

In the
Supreme Court of the United States
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the Supreme Court Bar and,
as required by Supreme Court Rules 33.1(h), the Brief of National Association of
Criminal Defense Lawyers and California Attorneys for Criminal Justice as Amici
Curiae in Support of Petitioner contains 5,420 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d).
Dated: August 13, 2020

Respectfully submitted,

Arn Jacobsen

